   REVIEW OF CONTROLS OVER
     CONTRACT AWARDS AND
MODIFICATIONS WITHIN THE CENTER
 FOR INFORMATION TECHNOLOGY
      SCHEDULE PROGRAMS
        REPORT NUMBER
       A090203/Q/A/P10007

          June 11, 2010
           REVIEW OF CONTROLS OVER CONTRACT AWARDS AND
           MODIFICATIONS WITHIN THE CENTER FOR INFORMATION
                   TECHNOLOGY SCHEDULE PROGRAMS
                   REPORT NUMBER A090203/Q/A/P10007


TABLE OF CONTENTS                                            Page

EXECUTIVE SUMMARY                                              i

INTRODUCTION                                                  1
     Background                                               1

      Objective, Scope and Methodology                        2

RESULTS OF REVIEW                                             4
    Improving Current Contracting Processes
    Will Strengthen Controls                                  4

            Recommendation                                    6

      Opportunities Exist to Increase the Detection of
      Incomplete and Inaccurate Contracts                     6

            Recommendations                                   11


      System Controls Should be Implemented to
      Ensure the Integrity of the Contracting Process         12

            Recommendation                                    14

     Conclusion                                               14

      Management Comments to the Draft Report                 14

      Internal Controls                                       14

APPENDICES

      Management Comments                                     A-1

      Report Distribution                                     B-1
            REVIEW OF CONTROLS OVER CONTRACT AWARDS AND
            MODIFICATIONS WITHIN THE CENTER FOR INFORMATION
                    TECHNOLOGY SCHEDULE PROGRAMS
                    REPORT NUMBER A090203/Q/A/P10007


                                EXECUTIVE SUMMARY


Purpose

The objective of this review was to determine if control weaknesses exist in the Center
for Information Technology Schedule Program’s (IT Center’s) contract award and
modification processes. If control weaknesses are identified, what actions should the IT
Center take to address them?


Background

During fiscal year (FY) 2009, the IT Center administered more than 5,400 Multiple
Award Schedule (MAS) contracts with total sales of over $15 billion. The IT Center’s
MAS contracts are used by many government agencies; therefore, the contracts must
be valid, accurate, and complete so that agencies can consistently rely on them to
provide the best value for their procurement needs.


Results in Brief

Our review identified that the IT Center has control weaknesses in both its contract
award and modification processes. In some cases, contracting actions were not
properly authorized. In others, contract documentation was missing, incorrect, or
incomplete. These issues pose both a legal and monetary risk to the General Services
Administration (GSA).

Prior to our review, the IT Center reviewed the case load of one contracting specialist
and identified seven contracts that had award or option period modifications that were
not approved by a contracting officer as required by regulation. In our review, we found
5 (out of 18) contracts with unsupported actions. We determined that eOffer and eMod
(online contracting applications) have the potential to reduce the likelihood that these
errors will occur, but these applications are rarely used. The IT Center has also created
contract review procedures to identify contracting actions with missing, incomplete, or
inaccurate documentation, though we believe these initiatives can be improved. To
further strengthen controls, the IT Center has submitted a System Change Request
(SCR) for GSA information systems that will limit the ability of unauthorized personnel to


                                            i

                                                                                          
finalize contract award information; however, this SCR is still awaiting review, approval,
and implementation.


Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

   1. Take steps to increase the use of eOffer and eMod within the IT Center.

   2. Require the IT Center to review contracts that IT Center management determines
      to be high-risk to ensure they are valid, including verification of the continuity of
      their performance periods.

   3. Strengthen the initiatives to detect contracts that may be incomplete or
      inaccurate by:

          a. Ensuring that IT Center management performs systematic reviews of
             contracts utilizing FSS Online.

          b. Adding language to the welcome letters and option packages sent to
             vendors as part of the IT Center’s award and modification processes to
             inform them that they must receive a copy of the Standard Form-1449 (for
             awards) and Standard Form-30 (for modifications) signed by a contracting
             officer to know that the contracting action is complete. The welcome
             letters and option packages should also include information on what action
             the vendor should take if they do not receive these signed documents.

          c. Ensuring that the IT Center utilizes the internal Procurement Management
             Reviews and maximizes their value by taking action to remediate any
             contracting issues identified.      Additionally, the standard operating
             procedures should be altered to include verification of the continuity of the
             performance period and verification of the vendor’s data in GSA
             Advantage.

   4. Implement the System Change Request submitted by the IT Center to remove
      contract specialists’ ability to make awards appear complete in GSA information
      systems without contracting officer approval.


Management Comments

On June 4, 2010, the Acting Commissioner of the Federal Acquisition Service concurred
with the findings and recommendations of the report. Management’s written comments
to the draft report are included in their entirety as Appendix A.

                                            ii

                                                                                              
 


                          REVIEW OF CONTROLS OVER CONTRACT AWARDS AND
                          MODIFICATIONS WITHIN THE CENTER FOR INFORMATION
                                  TECHNOLOGY SCHEDULE PROGRAMS
                                  REPORT NUMBER A090203/Q/A/P10007


                                                               INTRODUCTION


Background

The General Services Administration’s (GSA’s) Federal Acquisition Service (FAS)
includes three portfolios that provide products and services to government customer
agencies: Integrated Technology Services (ITS), General Supplies and Services, and
Travel, Motor Vehicle and Card Services. We focused our review on ITS’ Center for
Information Technology Schedule Programs (IT Center), which manages the Schedule
70 1 Multiple Award Schedule (MAS) contracts. In fiscal year (FY) 2009, the IT Center
oversaw more than 5,400 contracts with sales in excess of $15 billion.

The IT Center is organized into two divisions, each with four branches led by a branch
chief. As of October 1, 2009, the IT Center employed 50 contracting officers (COs) and
29 contract specialists (CSs) located in Arlington, Virginia; Fort Worth and San Antonio,
Texas; and Kansas City, Missouri. These contracting personnel are responsible for
working with vendors to award MAS contracts and modifications, including option
periods. The CSs do not possess warrant authority; therefore, a CO must review and
sign off on contract documents prepared by a CS.

A contract award is documented on a Solicitation/Contract/Order for Commercial Items
Standard Form (SF)-1449. The contracts are awarded for a base period of five years
with three five year option periods. All modifications, including those used to exercise
an option period, are documented on an Amendment of Solicitation/Modification of
Contract Standard Form (SF)-30. MAS contracts can be modified either unilaterally 2
(by GSA) or bilaterally 3 (by the vendor and GSA), depending on the type of
modification. At the end of the contract’s base period, the option or Evergreen Clause
                                                            
1
 Schedule 70 provides general purpose commercial information technology (IT) equipment, software,
and services.
2
  Per Federal Acquisition Regulation (FAR) 43.103(b), unilateral modifications are used to: (1) Make
administrative changes; (2) Issue change orders; (3) Make changes authorized by clauses other than a
changes clause (e.g., Property clause, Options clause, or Suspension of Work clause); and (4) Issue
termination notices.
3
  Per FAR 43.103(a), bilateral modifications are used to: (1) Make negotiated equitable adjustments
resulting from the issuance of a change order; (2) Definitize letter contracts; and (3) Reflect other
agreements of the parties modifying the terms of contracts. 

                                                                    1

                                                                                                         
 


may be invoked. This is used to extend the performance period of a MAS contract for
an additional five years.

To properly document contracting activity in accordance with FAS policy, contracting
personnel incorporate the SF-1449s and SF-30s into the contract files. They also input
the data into GSA’s information systems, using FSS Online which is then transmitted to
GSA’s eLibrary and eBuy. These programs are used by ordering agencies to identify
vendors that are capable of fulfilling their procurement needs.

This review was initiated by the GSA Office of Inspector General (OIG) after IT Center
management discovered that a CS had utilized FSS Online to make it appear that a
MAS contract option had been exercised even though it had not been approved by a
CO. In a subsequent review, the IT Center discovered that this CS had also
circumvented CO approval for three additional option period modifications, as well as
three contract awards.


Objective, Scope and Methodology

The review objective was to determine if control weaknesses exist in the IT Center’s
contract award and modification processes. If control weaknesses are identified, what
actions should the IT Center take to address them?

In order to accomplish the review objectives, we:

•   Reviewed relevant GSA OIG audit reports from 1997 through 2007.
•   Identified and reviewed applicable procurement policy and guidance including the
    FAR, General Services Administration Acquisition Manual, Procurement Information
    Bulletins, and FAS Instructional Letters.
•   Reviewed case decisions from the: Comptroller General, United States Court of
    Appeals, and Armed Services Board of Contract Appeals.
•   Identified and reviewed relevant statutory laws, policy, and guidance relating to
    information security and information system access.
•   Interviewed IT Center management to obtain Center-specific structure, policy,
    guidance, controls, and business practices.
•   Interviewed representatives from the FAS Office of the Chief Information Officer to
    discuss information systems utilized during the MAS contracting process.
•   Met with representatives from FAS’s Office of Acquisition Management to determine
    overall FAS policies on contract awards and modifications.
•   Performed a limited scope review of 18 contract files from the IT Center to verify
    contract validity related to award and modification documentation.

We conducted our review between July 2009 and January 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
                                           2

                                                                                          
 


reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                        3

                                                                                       
 


                                 RESULTS OF REVIEW


The IT Center has control weaknesses in both its contract award and modification
processes. In some cases, contracting actions were not properly authorized. In others,
contract documentation was missing, incorrect, or incomplete. These issues pose both
a legal and monetary risk to GSA.

Prior to our review, IT Center management evaluated the case load of one CS and
identified seven contracts in which either the award document or option period
modifications were not approved by a CO, as required by regulation. In our review, we
found 5 (out of 18) contracts that were not adequately documented. We determined
that eOffer and eMod (online contracting applications) have the potential to reduce the
likelihood that these errors will occur, but these applications are used in less than 30
percent of all IT Center contracting actions. In addition, contracts with missing,
incomplete, or inaccurate documentation have not been detected by IT Center
personnel or vendors; although they share the responsibility for ensuring contract
validity. A Systems Change Request (SCR) from the IT Center that would limit
contracting personnel from acting outside of their regulatory authority has yet to be fully
implemented. Until improvements in these areas are made, the IT Center remains at
risk of unknowingly administering invalid contracts and inaccurately portraying contract
information to customer agencies.


Improving Current Contracting Processes Will Strengthen Controls

Control weaknesses exist in the contract award and modification processes that allow
contracts to be awarded or modified incorrectly, without any visible indicators to
customers. When reviewing the case load of one CS, the IT Center identified seven
contracts with actions that appeared active in GSA IT systems; even though, the
supporting documentation had not been signed by a CO as required by the FAR. FAR
4.101 states that only a CO can sign contracts on behalf of the government and FAR
43.102(a) says that only a CO may authorize contract modifications. The IT Center re-
enforces these regulations in its desk guide for contracting personnel by requiring that
the CO sign the SF-1449 when awarding contracts and the SF-30 when modifying
contracts.

Prior to our review, the IT Center discovered that a CS was not adhering to the
regulations and had represented that modifications were executed, when in fact they
had not been authorized by a warranted CO. In this instance, the CS prepared
documentation for the option renewal, including the SF-30 for four contracts and
extended the contract end dates in FSS Online. The vendors then extended their
contract end dates in GSA Advantage. In addition, the CS prepared three SF-1449s,
posted the contract information to FSS Online, and allowed vendors to post their


                                            4

                                                                                           
 


information to GSA Advantage - all without CO approval. In doing this, the contract
terms were erroneously represented to ordering agencies.

Capitalize on Existing Controls in the eOffer and eMod Processes

When properly utilized, GSA’s eOffer and eMod have built-in controls to help ensure
that the types of violations mentioned above will not occur. EOffer and eMod are web-
based applications that allow vendors to electronically prepare and submit MAS contract
proposals and modifications. The eOffer and eMod processes have more automated
controls than the paper processes used by most contracting personnel. These
additional controls help ensure that contract documentation is completed and approved
by the required parties. However, despite the additional controls, eOffer and eMod are
currently utilized much less often than their paper counterparts within the IT Center. In
FY 2008, approximately 30 percent of offers and 27 percent of modifications were
processed through eOffer and eMod, respectively.

EOffer automatically uploads the vendor’s proposal information into the Offer
Registration System, which contracting personnel use to evaluate the proposal. After
the proposal is reviewed, selected documents are uploaded into FSS Online and the
contract package is approved. The vendor then electronically signs the eOffer contract
package. Subsequently, the CO must individually review and accept each document
that is a part of that package and digitally sign the eOffer. The review steps in the
eOffer procedure cannot be bypassed, as is possible in the paper process. In addition,
when using the paper process, the vendor does not sign the contract package and the
CO is not required to review and sign off on each document in the contract package.
EOffer also maintains the completed documents as a backup to the hard copy contract
file. The additional procedural controls built into eOffer ensure that the CO reviews all
the necessary documents for completion and required signatures. EOffer also allows
these documents to be easily accessible for review.

EMod uploads modification information into FSS Online. The modification is activated 4
in FSS Online only when it has received the proper electronic signatures. Only the CO
is required to sign a unilateral modification. A bilateral modification must be signed by
both the vendor and the CO. The program will only accept electronic signatures of the
CO and the vendor’s authorized negotiators. A CS is prohibited from signing or
activating the eMod. In comparison, when the paper modification procedure is used,
FSS Online cannot determine if the SF-30 has been signed, nor who signed it.
Contracting personnel enter the data into the program, stating that the SF-30 was
signed, without any supporting documentation.

By increasing the use of eOffer and eMod, the IT Center will reduce the likelihood that
contracting actions will go unsigned, be signed by the wrong individuals, or have
                                                            
4
  Activation is the final step when processing a modification in FSS Online. Once this takes place, it is
then publicly displayed in eLibrary and eBuy within 24 hours.  

                                                               5

                                                                                                             
 


missing documentation. Using eOffer and eMod more frequently will also reduce the
probability that a CS represents a contracting action as complete, without the approval
of a CO.

Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

    1. Take steps to increase the use of eOffer and eMod within the IT Center.


Opportunities Exist to Increase the Detection of Incomplete and Inaccurate
Contracts

The IT Center’s contract award and modification review processes should ensure that
contract documentation is complete and accurate and performance periods are
continuous. Branch chiefs currently have the capability to review contracting actions
within FSS Online, but do not regularly review them for accuracy or completeness. The
IT Center has recently created a plan for internal contract reviews, but at the time of our
review, had not completed one. Further, the IT Center currently communicates with
vendors regarding contract basics, but does not routinely provide guidance on how the
vendors can ensure that a valid contracting action has taken place. While the IT Center
has taken positive steps toward reducing the risk that contracts with validity issues go
undetected, improvements can be made.

As discussed previously, a CS in the IT Center awarded three contracts and exercised
option periods for four contracts without gaining CO approval as required by
procurement regulations. To determine how prevalent this practice was, we analyzed
18 active contracts. Although we did not identify any additional CSs awarding contracts
without CO approval, we discovered other contractual discrepancies. Of the 18
contracts reviewed, 5 had missing, incorrect, and/or incomplete documents which could
render them invalid. Four of the contracts had lapses in their performance periods prior
to an option being awarded and one contract had multiple temporary extensions that
were not properly signed by a CO, rendering them invalid. All of these contracts
present a risk to the government. The contractual discrepancies identified in our
contract review are outlined in Table 1.




                                            6

                                                                                           
 


Table 1: Contractual Discrepancies Identified During the OIG’s Contract Review

Contract                  Issues
A                         The contract had a one month gap in the performance period prior to the
                          third option period. IT Center personnel could not locate the SF-30 for the
                          second option period.
B                         The contract had a gap prior to the first option period that exceeded one
                          month, and a five month gap prior to the second option renewal. IT Center
                          personnel could not locate the SF-30 for the first option period.
C                         The contract had a two month gap in the performance period.
D                         The contract had a four month gap in the performance period prior to the
                          second option period. IT Center personnel could not locate the SF-1449
                          and other original award information.
E                         The contract had three temporary extensions that were not signed by the
                          CO, creating nearly a five month gap in the performance period.

While the United States Court of Appeals 5 has held that a contract extension can be
made after the performance period of the contract has expired; a Comptroller General
decision 6 found that if this is done, the extension does not cover the time period
between when the contract ended and the extension was executed. This means that a
contract is considered to be expired from the end date until a new bilateral modification
to extend the performance period is issued. The Comptroller General decision also
found that if task orders 7 are placed against an expired MAS contract, those task orders
become sole-source contracts. Therefore, task orders placed during this time period
are at risk of being considered improper sole source awards, placing the customer in
violation of the Competition in Contracting Act 8 . Improper sole source awards may
have other consequences. First, the awardee’s competitors may submit a bid protest,
as shown in the Comptroller General, Canon USA, Inc. decision (File B-311254.2, June
10, 2008). Second, as supported by the Armed Services Board of Contract Appeals
decision in the case of Tecom, Inc. (No. 51591), contractors may request equitable
adjustments if their actual costs are higher than those in the expired contract. Finally,
GSA will not be a party to the sole source contract; therefore, GSA would not be entitled
to the Industrial Funding Fees generated by the contract.

As outlined in Table 1 above, we identified contractual issues relating to the validity of 5
contracts. Due to the limited size of our review sample, we were unable to determine if

                                                            
5
     The Cessna Aircraft Company v. John H. Dalton, Secretary of the Navy (October 6, 1997) 
6
     DRS Precision Echo, Inc. B-284080, 2000 (February 14, 2000) 
7
    For this report, “task orders” refers to orders placed by customer agencies against GSA MAS contracts.
8
 10 U.S.C. § 2304(a)(1) (1994), requires that agencies obtain “full and open” competition through the use
of competitive procedures.
 
                                                               7

                                                                                                              
 


this trend is present throughout the IT Center’s contracts. However, to ensure that it is
not, the IT Center should routinely review its MAS contracts. We suggest that the IT
Center identify and review contracts that they determine to be high-risk to verify that all
of the required documentation is present and that the performance period is continuous.

IT Center management recognized that many of their contracts included a multitude of
temporary extensions prior to the award of option periods. To reduce the use of
temporary extensions, the IT Center instituted a center-wide policy in August 2009 to
restrict temporary extension approval to IT Center management, rather than allowing
COs that responsibility. We believe the new policy is a positive step and should reduce
the number of temporary extensions allowed on any one contract, but it may not prevent
gaps in the performance period, such as the ones identified by the review team. To
remedy this, the IT Center should give consideration to updating its policy, requiring that
the individual issuing the temporary extension verify the continuity of the contract’s
performance period.

Utilize FSS Online Capabilities to Facilitate Management Reviews

IT Center management has taken action to identify contractual issues; however, they
did not always detect contract deficiencies. To help remedy this, branch chiefs should
perform contract reviews using the information found in FSS Online. To aid these
reviews, the IT Center should enforce current center-wide policy for including
modification documentation in FSS Online. If these management reviews are not
performed, invalid contract actions may not be identified; thereby placing customer
agencies at risk of violating Federal law and GSA at risk of losing compensation.

In an effort to identify contracts with potential issues, the IT Center has trained its
branch chiefs to generate reports in FSS Online. These reports provide details on
processed modifications such as the type of modification, its effective date, and the user
that entered the information. However, the branch chiefs were not provided with any
information as to how often, or in what circumstances, they should perform these
reviews. Further, it was found that branch chiefs have not been reviewing these reports
on a regular basis. IT Center management informed us that the contracting actions are
only assessed if management feels there is a potential problem with an individual
contract. One indicator that they stated may highlight a potential problem is if an action
has been assigned to contracting personnel, but not completed for an unusually long
period of time. However, if a CS were bypassing the CO review and awarding actions
on his own, the contracting actions would most likely be open for a shorter period of
time. Therefore, the indicator cited by management would not necessarily trigger a
review and the issue would go unnoticed. While we recognize that training the branch
chiefs is a positive step towards implementing a control; improvements can be made to
the FSS Online review process including guidance on how often to perform these
reviews. Strengthening the review guidance will enhance the branch chiefs’ ability to
detect questionable contracting actions using this method.


                                            8

                                                                                           
 


In order to facilitate the branch chiefs’ reviews, we suggest that the IT Center enforce
current guidance for including modification documentation in FSS Online. FSS Online
has the capability to attach scanned documents to a contract’s modification information.
In fact, the IT Center’s desk guide instructs contracting personnel to scan the SF-30 into
FSS Online for all modifications. However, based upon our review, this is not always
completed. If all finalized SF-30s were scanned and stored in FSS Online as required,
the branch chiefs would be able to review modifications much more efficiently because
all modification information would be housed in one location rather than having to
compare what is in FSS Online to the paper contract file. The only other modification
information available for review in FSS Online is manually entered by contracting
personnel and may not accurately reflect the information on the SF-30, which is the
official modification document. Therefore, if the SF-30 is scanned into FSS Online as
required, it would enable the branch chiefs to identify if any of the required elements are
missing and remediate any deficiencies.

Highlight Vendors’ Contractual Responsibility

Processes are not currently in place to ensure that vendors are fully aware of what
documentation constitutes a complete and valid contract or contracting action. We
found that vendors accepted task orders against contracts with award or modification
documentation that had not been signed by COs. By accepting task orders against
invalid MAS contracts, vendors are inadvertently placing customer agencies at risk.

While primarily the responsibility of the IT Center, vendors are also responsible for the
validity of MAS contracts.        Contracting personnel are responsible for verifying
documentation submitted by vendors and approving actions that are in the best interest
of the government. Vendors should be aware of the status of their offer and the current
terms and conditions of their contract. In the situation previously mentioned in which
the CS did not gain proper approval before processing contracting actions, none of the
vendors involved reported an anomaly to IT Center management. In fact, some of the
vendors accepted task orders against these contracts. Vendors have a responsibility to
report any changes made to their contracts that are not in accordance with the FAR.
FAR 43.104(a) states that a contractor should notify the government if they feel their
contract has been changed or will be changed without written notification and CO
signature. However, in such cases, vendors may be unaware of how to ensure their
contracts and all related contracting actions are in compliance with this regulation. If a
vendor mistakenly believes they have a valid contract, they are at risk of accepting task
orders against a non-existent MAS contract. As discussed previously, task orders that
are issued against contracts that have expired become sole-source contracts, which are
potentially in violation of the Competition in Contracting Act. If FAS makes an additional
effort to inform vendors of the documentation that indicates a contracting action has
been awarded or processed, then the risk of accepting task orders or proceeding with
modifications without a MAS contract is reduced.



                                            9

                                                                                           
 


Information provided to vendors by the IT Center could be updated to improve vendors’
ability to detect incomplete contracts. When the IT Center awards a MAS contract or an
option period, the CO documents it on the SF-1449 or SF-30, as appropriate, and
returns a copy to the vendor. Once these documents are signed by the CO and/or the
vendor 9 , the award or option is official. When a vendor submits an offer to the IT Center
for a MAS contract, the IT Center sends them a welcome letter. This welcome letter
provides basic information about the award process. Similarly, when a contract’s option
period draws near, the IT Center provides the vendor with an option package. This
option package describes what actions the vendor must take in order to exercise the
option. Information could be provided at either or both points to clarify what constitutes
a valid contract.

Maximize the Benefit of Internal Procurement Management Reviews

Current IT Center controls do not consistently identify improper contracts. We identified
contracts with performance period gaps and a contract with unsigned modifications in
our review. As stated above, an option exercised after a performance period gap would
not cover any actions that took place during the time of the contract period gap. The
FAR requires that a CO sign all contract modifications. The IT Center’s policy dictates
that an SF-30 will be used to execute a contract modification. Therefore, if the SF-30 is
not signed by a CO, the modification is not valid. The IT Center is endeavoring to be
more diligent in detecting contractual issues by developing an internal review process.
At the time of our review, the IT Center’s reviews had not been completed. If improper
contracts continue to go unnoticed by IT Center management and personnel, agencies
may place orders against invalid contracts.

The IT Center recently created standard operating procedures (SOPs) for its quarterly
internal Procurement Management Reviews (PMRs) 10 , but at the time of our review
none had been completed. These internal reviews have the potential to identify and
remediate contracts with missing, incomplete, or incorrect documentation and to identify
areas of improvement for contracting personnel. The first internal PMR was scheduled
to begin on February 8, 2010.

According to IT Center management, the internal PMRs will be conducted by a team of
no less than four IT Center employees. Two randomly selected contracts per branch
per quarter will be reviewed. This will result in at least 16 contracts being subject to the
internal PMRs per quarter. The scope of these reviews include ensuring that all major




                                                            
9
    The vendor does not have to sign the SF-30 for an option, unless a bilateral changes clause is cited.
10
  These are to be conducted within the IT Center and are independent of the Procurement Management
Reviews currently performed by the GSA Center for Procurement Management Review.

                                                               10

                                                                                                             
 


documentation 11 is completed, including those requiring a CO signature. It will also
verify that the terms, conditions and other data held in FSS Online match the award
documents in the contract file. If issues are identified, they will be reported to branch
chiefs and COs for resolution.

The internal PMRs could be strengthened, as they currently do not address two
important areas. First, they do not verify the continuity of the contract’s performance
period; which is an issue in the IT Center. Second, they do not verify the accuracy of
data that the vendor enters into GSA Advantage. These additional steps would
strengthen the IT Center’s internal PMRs and help ensure contract validity.

If IT Center management implements the internal PMRs in accordance with their SOP,
they can confirm that a minimum of 64 contracts per year are complete and accurate.
Since the contracts are randomly selected for review, all COs and CSs have a chance
of having their contracts reviewed. This may provide an additional incentive for
contracting personnel to ensure that all contracts are in order, in preparation for review.
Implementing the internal PMRs should assist the IT Center in reducing the likelihood
that its contracts will have missing, incorrect or incomplete documentation.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

       2. Require the IT Center to review contracts that IT Center management determines
          to be high-risk to ensure they are valid, including verification of the continuity of
          their performance periods.

       3. Strengthen the initiatives to detect contracts that may be incomplete or
          inaccurate by:

              a. Ensuring that IT Center management performs systematic reviews of
                 contracts utilizing FSS Online.

              b. Adding language to the welcome letters and option packages sent to vendors
                 as part of the IT Center’s award and modification processes to inform them
                 that they must receive a copy of the Standard Form-1449 (for awards) and
                 Standard Form-30 (for modifications) signed by a contracting officer to know
                 that the contracting action is complete. The welcome letters and option
                 packages should also include information on what action the vendor should
                 take if they do not receive these signed documents.

                                                            
11
  The documents that will be reviewed include the: Pre-negotiation Memorandum, Price Negotiation
Memorandum, SF-1535 (Recommendation for Award), SF-1449, documentation supporting the award of
an option period, and all SF-30s.  

                                                               11

                                                                                                
 


              c. Ensuring that the IT Center utilizes the internal Procurement Management
                 Reviews and maximizes their value by taking action to remediate any
                 contracting issues identified. Additionally, the standard operating procedures
                 should be altered to include verification of the continuity of the performance
                 period and verification of the vendor’s data in GSA Advantage.


System Controls Should be Implemented to Ensure the Integrity of the
Contracting Process

At the onset of this review, IT Center management became aware of a control
weakness in the contract modification and award processes that allowed unwarranted
contracting personnel to alter the state of contract actions in GSA information systems
without CO approval. COs and CSs within the IT Center generally had identical
privileges in FSS Online, but different authorities to obligate government funds
according to the FAR 12 . Without controls to limit access to certain functions within this
system, unwarranted contracting personnel could enter data, giving incomplete
contracts the appearance of being valid. Recognizing this, the IT Center took action to
revise FSS Online user access, but more needs to be done.

FSS-19 is an automated supply system that supports GSA’s mission of procuring goods
and services for customer agencies. FSS Online is the front-end interface for FSS-19,
which acquisition personnel use to administer contracts. FSS Online and FSS-19 have
a shared database that feeds information to eLibrary and eBuy. ELibrary and eBuy are
two GSA systems that customer agencies rely upon when searching for and ordering
from MAS contracts. Because customer agencies rely upon these two sources for
acquisition decisions, it is important that the original data source, FSS Online, is
accurate.

After IT Center management became aware that the existing contract modification
process allowed unwarranted contracting personnel to alter the state of contracting
actions in FSS Online, they requested that the apply/award button, used to finalize
modifications in the system, be restricted to COs. When the SCR was implemented, it
removed the CS’ ability to activate modifications in FSS Online. This change ensures
that modification information displayed in eLibrary and eBuy has been approved by a
warranted CO. Additionally, FAS’ Office of Acquisition Management is currently
reviewing the hierarchy tables used to provide access to FSS Online. FAS is being
proactive; strengthening the controls associated with contract administration.


                                                            
12
  FAR 1.602-1 states, “Contracting officers have authority to enter into, administer, or terminate contracts
and make related determinations and findings. Contracting officers may bind the Government only to the
extent of the authority delegated to them.” This authority is delegated to COs in the form of warrants with
a limit on the monetary amount they may obligate.   

                                                               12

                                                                                                                
 


While system access for CSs has been limited relative to contract administration, their
access related to contract award has not. Currently, if a paper offer is received by the
IT Center, a CS has the ability to make it appear in FSS Online as though it were
awarded, regardless of CO endorsement. There is not currently a control in place to
ensure that a CO signs the SF-1449 for paper offers. To address this issue, the IT
Center submitted a SCR that would allow only COs to transmit contract award data into
FSS Online. However, it had not been fully reviewed, approved, or implemented during
our review.

The Office of Management and Budget (OMB) Circular A-130 Appendix III, recognizes
that “…the greatest harm has come from authorized individuals engaged in improper
activities...” To prevent harm within Federal information systems, OMB recommends
utilizing personnel controls including least privileged access. Least privileged access
means that information systems should only be accessible by employees who must use
the system during their normal job responsibilities and duties. There are two methods in
providing least privileged access to employees: restricting their general access rights
and restricting their type of access (e.g., read-only).

Without implementing proper system controls and ensuring least privileged access, FAS
puts customers at risk. A CS can currently input award information in FSS Online
without a CO’s approval and this misleading information would then be transmitted to
eLibrary and eBuy for use by customer agencies. As discussed previously, if a
customer places a task order against one of these contracts, the task order may be
considered a sole source contract. If the customer believes they are using a MAS
contract, they likely would not take the additional steps to properly obtain a sole source
contract, and therefore may be in violation of the Competition in Contracting Act.

In an effort to provide contracting personnel with the least privileged access as
recommended by OMB, FAS should implement the SCR submitted by the IT Center.
This will ensure that CS access and capabilities within FSS Online correlate to their job
responsibilities and duties. Implementation of this SCR will more closely align the
manual process to the systems process, with adequate consideration of the differences
in authority that COs and CSs possess. Further, it will ensure that information supplied
to customer agencies is accurate.

The Enterprise Acquisition Solution (EAS) is a FAS initiative that will modernize its IT
systems. When implementing EAS, the FAS Office of the Chief Information Officer will
incorporate all current system controls. Therefore, any new controls applied as a result
of this report’s recommendations should be communicated to the FAS Office of
Acquisition Management representative on the Acquisition Process Improvement Plan
Integrated Project Team. The transition to EAS will not be completed until FY 2015;
therefore, any necessary control improvements will need to be made to the existing
system, FSS Online, until the conversion is complete.



                                           13

                                                                                            
 


Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

    4. Implement the System Change Request submitted by the IT Center to remove
       contracting specialists’ ability to make awards appear complete in GSA
       information systems without contracting officer approval.

Conclusion

We identified control weaknesses in the contract award and modification processes
within the IT Center. While we acknowledge that the IT Center has taken steps to
address these issues, opportunities for improvement remain. An increase in the use of
eOffer and eMod has the potential to improve contract quality. The controls that are
built into the systems help to prevent contracting actions from being activated with
missing signatures or documentation.          In addition, the internal PMRs, vendor
notifications, and the addition of management reviews in FSS Online should facilitate
the process of identifying contractual discrepancies. Further, implementation of the
proposed SCR will assist in tightening system controls and ensure that contract
personnel are working within their authority.


Management Comments to the Draft Report

On June 4, 2010, the Acting Commissioner of the Federal Acquisition Service concurred
with the findings and recommendations of the report. Management’s written comments
to the draft report are included in their entirety as Appendix A.


Internal Controls

This review was limited to the analysis of the controls within the award and modification
processes of MAS contracts in the IT Center. Thus, our evaluation of internal controls
was limited to the following five contracting processes: EOffer, paper offer, eMod, paper
modification, and exercising an option. In addition, limited analysis of the internal
controls of FSS Online occurred related to CO and CS user access rights and
capabilities.




                                           14

                                                                                         
 




    APPENDICES




          
 


    REVIEW OF CONTROLS OVER CONTRACT AWARDS AND
    MODIFICATIONS WITHIN THE CENTER FOR INFORMATION
            TECHNOLOGY SCHEDULE PROGRAMS
            REPORT NUMBER A090203/Q/A/P10007

                  Management Comments




                          A-1
 




    A-2
 




    A-3
 


            REVIEW OF CONTROLS OVER CONTRACT AWARDS AND
            MODIFICATIONS WITHIN THE CENTER FOR INFORMATION
                    TECHNOLOGY SCHEDULE PROGRAMS
                    REPORT NUMBER A090203/Q/A/P10007

                                    Report Distribution

                                                          Copies

Acting Commissioner, Federal Acquisition Service (Q)        3

Director, Internal Control and Audit Division (BEI)         1

Assistant Inspector General for Auditing (JA, JAO)          2

Assistant Inspector General for Investigations (JI)         1




                                           B-1
